No. 19-1062
IN THE SUPREME COURT OF THE UNITED STATES
_________________
CJ CHEILJEDANG CORP., ET AL., PETITIONERS
v.
INTERNATIONAL TRADE COMMISSION, ET AL.
___________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE FEDERAL RESPONDENT IN OPPOSITION, via email and firstclass mail, postage prepaid, this 21st day of May, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 6555 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct.
Executed on May 21, 2020.

May 21, 2020

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor,
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

19-1062
CJ CHEILJEDANG CORP., ET AL.
ITC, ET AL

CHARLES DUAN
R STREET INSTITUTE
1212 NEW YORK AVE., NW
SUITE 900
WASHINGTON, DC 20005
202-525-5717
CDUAN@RSTREET.ORG
JAMES F. HALEY, JR.
HALEY GUILIANO LLP
75 BROAD ST
SUITE 1000
NEW YORK, NY 10064
DOUGLAS HARRY HALLWARD-DRIEMEIER
ROPES & GRAY, LLP
2099 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006-6807
202-508-4776
DOUGLAS.HALLWARDDRIERMEIER@ROPESGRAY.COM
CHARLES EDMUND LIPSEY
FINNEGAN, HENDERSON, FARABOW,
GARRETT, DUNNER, LLP
TWO FREEDOM SQUARE
11955 TWO FREEDOM SQUARE
RESTON, VA 20190-5675
CHARLES.LIPSEY@FINNEGAN.COM

STEVEN PEPE
ROPES & GRAY LLP
1211 AVENUE OF THE AMERICAS
NEW YORK, NY 10036
PHILLIP Z. YAO
ROPES & GRAY LLP
800 BOYLSTON STREET
BOSTON, MA 02199

